APPENDIX
Decision of the court of appeals
United States v. Jones, 952 F.3d 153 (4th Cir. 2020). . . . . . . . . . . . . . . . . . . 1a
District court’s memorandum opinion
United States v. Jones, No. 3:17-cr-71 (E.D. Va. Feb. 16, 2018).. . . . . . . . . . 9a

153

U.S. v. JONES
Cite as 952 F.3d 153 (4th Cir. 2020)

pages of the transcript from the sentencing hearing and was in the context of
addressing the defendant’s ‘‘objection.’’
J.A. 38–41. And the court ruled by denying
the ‘‘objection.’’ Id. at 40. In doing so, the
rationale provided by the district court
addressed the legal objection and that rationale did not resolve the distinct equitable grounds for a variance.
Second, the district court did not describe the circumstances or characteristics
present that, in its opinion, would outweigh
the circumstances that the defendant argued justified a variance. While the Government discussed the repeated deportations and recidivism, id. at 43, the court
did not adopt or convey the weight it
placed on those arguments. Nor did the
court find that this was a typical case
adequately addressed by the Guidelines.
See Blue, 877 F.3d at 518.

criminal history and created unwarranted
sentence disparities. These non-frivolous
arguments for a variance required the district court to make a record indicating that
the arguments were addressed. See Ross,
912 F.3d at 745. But the sentencing transcript here does not do so. We thus must
vacate the sentence and send this case
back for resentencing. In vacating this
sentence, we express no view about the
merit of Torres-Reyes’s arguments for a
variance or the appropriate length of a
sentence for Torres-Reyes.
VACATED AND REMANDED

,

Lastly, the broader context of the sentencing hearing does not make it ‘‘ ‘patently obvious’ ’’ that the court considered
these grounds for a variance. Id. at 520–21
(quoting Montes-Pineda, 445 F.3d at 381).
The court’s limited explanation for the sentence here does not permit us to infer that
the court considered the variance argument separately from the legal objection.
See United States v. Lynn, 592 F.3d 572,
576 (4th Cir. 2010).4

Melvin Lee JONES, Defendant Appellant.

* * *

Argued: October 31, 2019

Torres-Reyes argued that a variance
was warranted because considering his
1995 convictions over-represented his

Decided: March 3, 2020

4.

The district court’s only explanation for the
37-month sentence was that it ‘‘adopt[ed] the
findings in the Presentence Report as credible
and reliable, and based upon those findings
[it] calculated the imprisonment range prescribed by the Advisory Guidelines. [It] considered that range, as well as the other factors
set out in 18 U.S.C. § 3553(a).’’ J.A. 44. The
court also stated that it was sentencing the
defendant ‘‘pursuant to the Sentencing Reform Act of 1984 and in accord with the

UNITED STATES of America,
Plaintiff - Appellee,
v.

No. 18-4448
United States Court of Appeals,
Fourth Circuit.

Background: Following denial of his motion to suppress, 2018 WL 935396, defenSupreme Court decision in United States v.
Booker,’’ 543 U.S. 220, 125 S.Ct. 738, 160
L.Ed.2d 621 (2005). Id. And so we cannot
‘‘say with any ‘fair assurance’ that the district
court’s explicit consideration of those arguments would not have affected the sentence
imposed.’’ Lynn, 592 F.3d at 585 (citation
omitted) (quoting Kotteakos v. United States,
328 U.S. 750, 765, 66 S.Ct. 1239, 90 L.Ed.
1557 (1946)).

App. 1a

154

952 FEDERAL REPORTER, 3d SERIES

dant pled guilty in the United States District Court for the Eastern District of
Virginia, M. Hannah Lauck, J., to possession of firearm by felon, and he appealed.
Holdings: The Court of Appeals, Niemeyer, Circuit Judge, held that probable cause
supported warrant for search of defendant’s entire residence.
Affirmed.
1. Searches and Seizures O25.1
To be lawful under Fourth Amendment, nonconsensual search of home by
law enforcement officers ordinarily requires warrant. U.S. Const. Amend. 4.
2. Searches and Seizures O40.1
Probable cause for search requires
only kind of fair probability on which reasonable and prudent people, not legal technicians, would rely. U.S. Const. Amend. 4.
3. Searches and Seizures O113.1
Task of judicial officer presented with
application for search warrant is to make
practical, common-sense determination of
whether sworn facts submitted in support
of application establish fair probability that
contraband or evidence of crime will be
found in particular place. U.S. Const.
Amend. 4.
4. Searches and Seizures O113.1
Probable cause for a search warrant is
not high bar, and it must be assessed
objectively based on totality of circumstances, including common-sense conclusions about human behavior. U.S. Const.
Amend. 4.
5. Searches and Seizures O200
Court reviewing legality of search
warrant must afford great deference to
magistrate’s determination that probable
cause for search had been established by
reviewing whether magistrate had substantial basis for concluding that probable

cause existed to search particular place for
evidence of specific crime. U.S. Const.
Amend. 4.
6. Controlled Substances O146
Probable cause supported warrant for
search of defendant’s entire residence, including safes and locked boxes, for evidence of crime of marijuana possession,
despite defendant’s contention that warrant’s geographic scope should have been
limited to kitchen trash can in which officers located smoldering marijuana joint
during warrantless protective sweep,
where officer stated in his affidavit that as
soon as defendant opened front door, he
could smell strong odor of marijuana coming from inside home, and common sense
indicated that it was fairly likely that marijuana that defendant was smoking was not
the only marijuana in house and that additional marijuana would be stored out of
sight. U.S. Const. Amend. 4.
7. Searches and Seizures O126
Search warrant’s geographical scope
complies with Fourth Amendment if, in
light of common-sense conclusions about
human behavior, there is fair probability
that contraband or evidence of crime will
be found in areas delineated by warrant.
U.S. Const. Amend. 4.

Appeal from the United States District
Court for the Eastern District of Virginia,
at Richmond. M. Hannah Lauck, District
Judge. (3:17-cr-00071-MHL-1)
ARGUED: Joseph Stephen Camden,
OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Richmond, Virginia, for Appellant. Daniel T. Young, OFFICE OF
THE UNITED STATES ATTORNEY,
Alexandria, Virginia, for Appellee. ON
BRIEF: Geremy C. Kamens, Federal Public Defender, OFFICE OF THE FEDERAL PUBLIC DEFENDER, Alexandria,

App. 2a

155

U.S. v. JONES
Cite as 952 F.3d 153 (4th Cir. 2020)

Virginia, for Appellant. G. Zachary Terwilliger, United States Attorney, Alexandria,
Virginia, Olivia L. Norman, Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Richmond, Virginia, for Appellee.
Before NIEMEYER and AGEE, Circuit
Judges, and THOMAS S. KLEEH, United
States District Judge for the Northern
District of West Virginia, sitting by
designation.
Affirmed by published opinion. Judge
NIEMEYER wrote the opinion, in which
Judge AGEE and Judge KLEEH joined.
NIEMEYER, Circuit Judge:
When Melvin Jones opened the front
door of his house to the knock of Richmond, Virginia police officers investigating
a complaint, the officers smelled a strong
odor of marijuana smoke coming from
within the house. As possession of marijuana is a crime in Virginia, see Virginia Code
§ 18.2-250.1, the officers arrested Jones
and conducted a sweep of the house to
ensure that no one else was inside. While
conducting the sweep, the officers observed a still-smoldering marijuana cigarette lying in an open trash can in the
kitchen.
Based on the officers’ smell of marijuana
smoke at Jones’s house and their observation of the used marijuana cigarette, the
officers obtained a warrant to search the
house for evidence of marijuana possession. The warrant authorized the officers
to search ‘‘any safes or locked boxes that
could aid in the hiding of illegal narcotics.’’
Upon conducting the search, the officers
found a handgun in a safe in Jones’s bedroom closet. They also recovered marijuana, crack cocaine, and items commonly
used for packaging and weighing narcotics.
Jones pleaded guilty to possession of a
firearm by a felon, in violation of 18 U.S.C.

§ 922(g)(1), reserving the right to challenge the district court’s order denying his
motion to suppress the evidence obtained
from the search on the ground that the
warrant was overbroad. As he explains:
[P]robable cause in this case did not
extend to containers, including a locked
safe in a bedroom closet TTTT The mismatch between the justification for the
warrant for simple possession of marijuana (a single smoldering joint), and
the scope of the search to include every
container in the house, top to bottom,
rendered the warrant overbroad.
We conclude that because the officers
had probable cause to believe that a crime
was being committed in Jones’s house, the
warrant appropriately authorized the
search of the house for evidence of that
crime. We find Jones’s argument — that
the warrant should have been limited in
geographic scope because the smoldering
marijuana cigarette in the trash can was
the likely source of the marijuana odor —
to be unpersuasive. Put simply, the presence of one marijuana cigarette in the
kitchen did not negate the fair probability
that other evidence of the crime of marijuana possession would be found in the
house. Accordingly, we affirm.
I
In May 2016, the Richmond Police Department received an anonymous tip on a
hotline — created to encourage members
of the public to report illegal gun possession — that a man named Melvin Jones,
going by the name ‘‘Mello,’’ was selling
marijuana and crack cocaine from 3008
Berwyn Street in Richmond. The tipster
reported having personally seen Jones
both sell and cook narcotics and stated
that Jones kept the utensils he used to
cook the narcotics in a safe in his closet
and stored the drugs in different places

App. 3a

156

952 FEDERAL REPORTER, 3d SERIES

throughout the house. According to the
tipster, Jones kept a handgun either on his
person, in his dresser, or under his mattress. Finally, the tipster reported that
Jones had a hidden camera on his porch to
enable him to see who was approaching
the house. The police department retained
this tip as a complaint to be investigated in
due course.
Several months later, on the afternoon
of August 24, 2016, Officer Jonathan
Myers and two other officers went to 3008
Berwyn Street to investigate the tip by
conducting a ‘‘knock and talk.’’ Officer
Myers, who was familiar with Jones from
prior interactions, knocked on the front
door while the two other officers stood
behind him. Within ten seconds, Jones
opened the door and, as soon as he did, the
officers smelled a strong odor of marijuana
smoke coming from inside the house.
Based on the marijuana odor, the officers seized Jones as he was standing on
the door’s threshold, placed him in handcuffs, and seated him on a chair on the
front porch. When Jones indicated that his
niece and nephew were inside the house,
the officers and Jones called the children
out of the house. Then, while one officer
stayed with Jones and the children on the
front porch, Officer Myers and the other
officer entered the house and conducted a
protective sweep to verify Jones’s statement that there were no other people inside the house. During the sweep, which
lasted about two minutes, Myers observed
a still-smoldering marijuana cigarette sitting on top of the trash in an open trash
can in the kitchen.
After completing the sweep, Officer
Myers allowed Jones to return to the
house and directed him to remain there.
When Jones declined to give his consent
for a search of the house, Myers left the
house to apply for a search warrant while
the other officers remained with Jones.

To support his request for the warrant,
Officer Myers prepared an affidavit indicating that he was requesting the warrant
‘‘in relation to TTT Simple Possession of
Marijuana,’’ a violation of Virginia Code
§ 18.2-250.1. As the factual basis for the
request, the affidavit explained that Myers
and other officers had conducted a ‘‘knock
and talk’’ at 3008 Berwyn Street to investigate an anonymous tip received by the
police department some months before.
The affidavit described the officers’ encounter with Jones, stating that ‘‘[a]s soon
as the door was opened’’ by Jones, Myers
‘‘could smell a strong odor coming from
inside the home.’’ Myers noted in the affidavit that ‘‘[b]ased on [his] training and
experience,’’ he believed the odor to be
marijuana. Finally, Myers stated that after
Jones had been detained ‘‘[b]ased on the
odor,’’ he had performed a ‘‘check’’ of the
residence ‘‘in an effort to make sure there
were no other people located [inside]’’ and
that, during that check, he had observed
what he ‘‘believed to be a marijuana cigarette in the kitchen trash can, sitting on
the top of the trash, still burning.’’
Based on Officer Myers’s affidavit, a
magistrate issued a warrant authorizing
police to search 3008 Berwyn Street in
relation to the crime of simple possession
of marijuana and to seize:
Any controlled substances (marijuana)
and any paraphernalia used in the use of
illegal narcotics. Any instruments used
in the illegal drug usage of marijuana or
any other illegal substance. Any electronic devices used to aid in the usage of
illegal narcotics, any firearms and ammunition, any financial records and any
written records identifying any person(s)
involved in the illegal drug use and/or
indicating residence in the dwelling. Also
any safes or locked boxes that could aid
in the hiding of illegal narcotics.

App. 4a

157

U.S. v. JONES
Cite as 952 F.3d 153 (4th Cir. 2020)

Officer Myers returned to 3008 Berwyn
Street with a copy of the search warrant
and then sat with Jones in the living room
while the other officers conducted the
search. In a safe in Jones’s bedroom closet,
officers recovered a handgun, and elsewhere they recovered marijuana, crack cocaine, and items commonly used for packaging and weighing narcotics.
After Jones was indicted for possession
of a firearm by a felon, in violation of 18
U.S.C. § 922(g)(1), and possession of cocaine base with intent to distribute, in
violation of 21 U.S.C. § 841(a)(1) and
(b)(1)(C), he filed a motion to suppress the
evidence obtained during the search of his
house, contending, among other things,
that the search warrant was overbroad and
thus violated his Fourth Amendment
rights. He acknowledged that ‘‘officers
may have had probable cause to search for
the marijuana that they smelled’’ but maintained that the magistrate lacked a basis
to authorize the officers to search ‘‘safes
[and] locked boxes,’’ as there was no probable cause to believe that such containers
would hold burning marijuana. Indeed,
though Jones separately challenged the legality of the officers’ sweep of the residence, he argued further that the officers’
observation of ‘‘a still-smoking marijuana
cigarette’’ during the sweep meant that
they had already identified the source of
the odor and therefore should not have
been authorized to search the rest of the
house for evidence of marijuana possession. In short, he challenged the reasonableness of the geographic scope of the
warrant.
Following an evidentiary hearing on
Jones’s motion to suppress, the district
court denied Jones’s motion by a memorandum and order dated February 16,
2018. The court indicated that the officers’
immediate detection of the marijuana odor
when Jones opened the door was alone

sufficient to establish probable cause that
the house contained evidence of marijuana
possession. It also overruled Jones’s argument that the warrant was fatally overbroad, rejecting what it called Jones’s
‘‘novel theory’’ that the officers had probable cause ‘‘to search only for actively burning marijuana’’ and ruling instead that the
officers had probable cause to search the
entire residence, including closed containers, for any marijuana, burning or otherwise.
After his motion to suppress was denied,
Jones entered a conditional guilty plea to
possession of a firearm by a felon, reserving his right to appeal the district court’s
ruling on the motion. The government, in
turn, agreed to dismiss the drug-trafficking count, and the district court sentenced
Jones to 54 months’ imprisonment.
From the district court’s final judgment
dated June 11, 2018, Jones filed this appeal, challenging only the district court’s
denial of his motion to suppress.
II
Jones contends that the warrant authorizing the police officers to open ‘‘any safes
or locked boxes’’ in his house — leading to
the officers’ discovery of the handgun in
his safe — violated his Fourth Amendment
rights. Specifically, he argues that the evidence in the warrant affidavit that officers
had detected a strong odor of marijuana
coming from the house and observed a
smoking joint in the kitchen trash can
failed to establish probable cause that other locations in the house would hold evidence of marijuana possession. In his view,
the officers’ detection of the marijuana
odor as they opened the door provided
them with ‘‘probable cause only to believe
that [he] was smoking a marijuana cigarette in his home,’’ and the search should
have ended ‘‘when the officers discovered
the source of the smell,’’ i.e., ‘‘the actual

App. 5a

158

952 FEDERAL REPORTER, 3d SERIES

still-smoking marijuana cigarette.’’ (Emphasis added). He maintains that ‘‘[t]he
mismatch between the justification for the
warrant for simple possession of marijuana
(a single smoldering joint), and the scope
of the search to include every container in
the house, top to bottom, rendered the
warrant overbroad.’’
[1–5] The relevant legal principles are
well settled. To be lawful under the Fourth
Amendment, the nonconsensual search of a
home by law enforcement officers ordinarily requires a warrant. See Fernandez v.
California, 571 U.S. 292, 298, 134 S.Ct.
1126, 188 L.Ed.2d 25 (2014). And the
Fourth Amendment specifically provides
that ‘‘no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and particularly describing the
place to be searched, and the persons or
things to be seized.’’ U.S. Const. amend.
IV. Probable cause requires only ‘‘the kind
of fair probability on which reasonable and
prudent people, not legal technicians,’’
would rely. Florida v. Harris, 568 U.S.
237, 244, 133 S.Ct. 1050, 185 L.Ed.2d 61
(2013) (cleaned up). Thus, the task of a
judicial officer presented with an application for a search warrant is ‘‘to make a
practical, common-sense’’ determination of
whether the sworn facts submitted in support of the application establish ‘‘a fair
probability that contraband or evidence of
a crime will be found in a particular place.’’
Illinois v. Gates, 462 U.S. 213, 238, 103
S.Ct. 2317, 76 L.Ed.2d 527 (1983). Probable cause is ‘‘not a high bar,’’ and it must
be assessed objectively based on a totality
of the circumstances, including ‘‘commonsense conclusions about human behavior.’’
District of Columbia v. Wesby, ––– U.S.
––––, 138 S. Ct. 577, 586–87, 199 L.Ed.2d
453 (2018) (cleaned up). Moreover, we afford ‘‘great deference’’ to a magistrate’s
determination that probable cause for the
search had been established, Gates, 462

U.S. at 236, 103 S.Ct. 2317 (cleaned up), by
reviewing whether ‘‘the magistrate had a
substantial basis for concluding that probable cause existed’’ to search a particular
place for evidence of a specific crime, id. at
238–39, 103 S.Ct. 2317 (cleaned up).
[6] In this case, Officer Myers specifically stated in his affidavit that as soon as
Jones opened the front door, he ‘‘could
smell a strong odor coming from inside the
home’’ and that he believed the odor to be
that of marijuana based on his ‘‘training
and experience.’’ And we have ‘‘repeatedly
held that the odor of marijuana alone can
provide probable cause to believe that
marijuana is present in a particular place.’’
United States v. Humphries, 372 F.3d 653,
658 (4th Cir. 2004); see also Wesby, 138 S.
Ct. at 586 n.5 (relying on Johnson v. United States, 333 U.S. 10, 13, 68 S.Ct. 367, 92
L.Ed. 436 (1948), for the proposition that
‘‘ ‘the odor’ of narcotics can ‘be evidence of
the most persuasive character’ ’’). Thus,
based on the officers’ detection of a strong
odor of marijuana smoke coming from
Jones’s house, the magistrate lawfully issued a warrant authorizing the search of
Jones’s entire house, including safes and
locked boxes, for evidence of the crime of
marijuana possession.
While Jones concedes that the officers
had probable cause to believe that marijuana would be found in his residence, he
contends that the marijuana odor that the
police detected provided a basis to search
only for the source of odor. He thus maintains that when the officers located a
‘‘smoldering marijuana joint’’ in the kitchen trash can, they lacked probable cause to
believe that there was any other marijuana
in the house, and the warrant should have
been limited to the search and seizure of
the marijuana cigarette.
[7] Jones’s argument, however, applies
a too-cramped understanding of the scope
of a proper warrant. The geographical

App. 6a

U.S. v. JONES
Cite as 952 F.3d 153 (4th Cir. 2020)

159

scope of a warrant complies with the
Fourth Amendment if, in light of ‘‘common-sense conclusions about human behavior,’’ Wesby, 138 S. Ct. at 587 (cleaned
up), there is a ‘‘fair probability that contraband or evidence of a crime’’ will be found
in the areas delineated by the warrant,
Gates, 462 U.S. at 238, 103 S.Ct. 2317.
Here, the officers had evidence that Jones,
who was the only adult in the house at the
time, had been smoking marijuana in the
single-family residence where he lived
when the officers knocked on the front
door. Common sense indicates that it was
fairly likely that the marijuana Jones was
smoking was not the only marijuana in the
house. Indeed, a reasonable officer would
be entitled to infer that it was most likely
but a single portion of a larger quantity
that was stored somewhere in the house.
Moreover, it would also be reasonable to
conclude that there was a fair probability
that the house contained evidence of the
source of the marijuana or the scope of
Jones’s possession violation. And, of
course, common sense would also indicate
that such evidence is often stored out of
sight. In short, based on common sense
and context, a fair probability existed that
further evidence of Jones’s crime would be
uncovered elsewhere in his house, which
justified a warrant authorizing the search
of the entire house, not just the kitchen
trash can where the smoldering marijuana
cigarette was observed.

ance of a warrant authorizing [a] search
for other stolen property as well.’’ 2
Wayne R. LaFave, Search & Seizure
§ 3.7(d) (5th ed. 2012) (emphasis added).
Similarly, police who have a warrant based
on probable cause to search a residence for
a particular rifle ‘‘may search only places
where rifles might be and must terminate
the search once the rifle is found.’’ Horton
v. California, 496 U.S. 128, 141, 110 S.Ct.
2301, 110 L.Ed.2d 112 (1990) (emphasis
added) (cleaned up). These examples demonstrate that, in some circumstances, probable cause can exist only as to a specific
and identifiable object, and the warrant in
such instances must accordingly be limited
to places where that object could be found.
But it does not follow that probable cause
to believe that some incriminating evidence
will be present at a particular place can
never give rise to probable cause to believe
that there will be more of the same at that
place or another logical place. See LaFave,
supra, § 3.7(d) (noting that a ‘‘somemeans-more inference may be permissible’’
depending on the circumstances). And
here, when evidence showed that Jones
had just been using a small amount of
marijuana in one room of his house, it
reasonably followed that more marijuana
or other evidence of the crime of marijuana possession was fairly likely to be found
elsewhere in the house.

The circumstances presented here are
thus unlike those relied on by Jones where
there was only probable cause to conclude
that a particular item of evidence or contraband would be found in a house. Thus,
‘‘if it [were] shown that the occupant of the
premises to be searched recently knowingly received two items of stolen property,
TTT there [would be] probable cause to
search for those two items, but this alone
[would] not establish the suspect’s ongoing
activities as a fence so as to justify issu-

We thus hold that the magistrate, presented with evidence that Jones was illegally possessing and smoking marijuana in
his house, had a substantial basis for concluding that probable cause existed to
search the entire house for evidence of
marijuana possession, even if the source of
the smoke was a smoldering marijuana
cigarette found in the kitchen trash can.
And because the warrant properly authorized a search of Jones’s house, including
any safes and locked boxes, the officers

App. 7a

160

952 FEDERAL REPORTER, 3d SERIES

legally discovered the handgun that Jones
kept in the safe in his bedroom closet.
In view of our conclusion that the smell
of marijuana smoke from within Jones’s
house provided probable cause sufficient
for the issuance of a warrant to search the
house, we need not address Jones’s additional argument that the anonymous tipster’s complaint should not have been considered by the magistrate in assessing
whether probable cause was shown.
Jones argues alternatively that the
search of his house was not conducted
pursuant to the warrant because Officer
Myers did not inform the executing officers of the warrant’s specific terms. But
the lack of such instruction provides no
basis to suppress the evidence recovered
when the search was, in fact, conducted in
conformance with a valid warrant, as was
the case here.
The judgment of the district court is
accordingly affirmed.
AFFIRMED

Western District of North Carolina, Robert J. Conrad, J., of possession of firearm
in furtherance of drug-trafficking crime
and other drug-trafficking and firearmsrelated offenses, and he appealed.
Holdings: The Court of Appeals, Harris,
Circuit Judge, held that:
(1) police detective did not violate Fourth
Amendment when he prolonged traffic
stop;
(2) admission of recorded phone call that
informant made to defendant at police
direction did not violate Confrontation
Clause;
(3) district court did not commit plain error in allowing police officer’s testimony that informant phoned defendant
after he was instructed to call his supplier;
(4) imposition of two sentences based on
defendant’s two convictions for possession of firearm in furtherance of drugtrafficking crime was permissible; and
(5) First Step Act did not apply to defendant whose case was pending on appeal
when it was enacted.

,

Affirmed.
1. Criminal Law O1119(1), 1440(2)

UNITED STATES of America,
Plaintiff – Appellee,
v.
Zavian Munize JORDAN, Defendant –
Appellant.
No. 17-4751

Claim of ineffective assistance should
be raised in motion to vacate, set aside, or
correct sentence in district court rather
than on direct appeal, unless record conclusively shows ineffective assistance.
U.S. Const. Amend. 6; 28 U.S.C.A. § 2255.
2. Automobiles O349(17)

United States Court of Appeals,
Fourth Circuit.
Argued: October 29, 2019
Decided: March 3, 2020
Background: Defendant was convicted in
the United States District Court for the

Police detective had reasonable suspicion of drug distribution, and thus did not
violate Fourth Amendment when he prolonged traffic stop for 11 minutes to wait
for back-up before walking his drug-detecting dog around defendant’s truck,
where federal agents had told detective

App. 8a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 1 of 45 PageID# 402

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
UNITED STATES OF AMERICA
Case No. 3:17cr71

MELVIN LEE JONES,
Defendant.
MEMORANDUM OPINION

This matter comes before the Court on Defendant Melvin Jones's Motion to Suppress

Statements and Evidence (the "Motion to Suppress"). (ECF No. 14.) In the Motion to Suppress,
Jones seeks to suppress both physical evidence and statements arising from an encounter with

Richmond Police officers at a residence on August 24, 2016. For the reasons that follow, the
Court will deny the Motion to Suppress.
I. Procedural Historv and Findings of Fact
A.

Procedural Historv

On June 6, 2017, a grand jury indicted Jones on two counts: (1) Possession with Intent to
Distribute Cocaine Base in violation of 21 U.S.C. § 841(a)(1); and, (2) Possession of a Firearm

by a Convicted Felon in violation of 18 U.S.C. § 922(g)(1). (ECF No. 1.) An arrest warrant
issued the next day. (ECF No. 4.) On October 10, 2017, Jones was arrested and released on
personal recognizance to a third party custodian. (ECF No. 10.) On November 13, 2017, Jones

filed the Motion to Suppress, (ECF No. 14), and the United States responded, (ECF No. 17). On
December 7, 2017, the Court held an evidentiary hearing on the Motion to Suppress (the
"Hearing"). (ECF No. 19.) The Court then ordered supplemental briefing which the parties

timely filed, (ECF Nos. 26, 27), and heard oral argument on January 24, 2018. At oral argument.

App. 9a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 2 of 45 PageID# 403

App. 10a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 3 of 45 PageID# 404

App. 11a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 4 of 45 PageID# 405

App. 12a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 5 of 45 PageID# 406

App. 13a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 6 of 45 PageID# 407

App. 14a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 7 of 45 PageID# 408

App. 15a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 8 of 45 PageID# 409

App. 16a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 9 of 45 PageID# 410

App. 17a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 10 of 45 PageID# 411

App. 18a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 11 of 45 PageID# 412

App. 19a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 12 of 45 PageID# 413

App. 20a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 13 of 45 PageID# 414

App. 21a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 14 of 45 PageID# 415

App. 22a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 15 of 45 PageID# 416

App. 23a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 16 of 45 PageID# 417

App. 24a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 17 of 45 PageID# 418

App. 25a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 18 of 45 PageID# 419

App. 26a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 19 of 45 PageID# 420

App. 27a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 20 of 45 PageID# 421

App. 28a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 21 of 45 PageID# 422

App. 29a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 22 of 45 PageID# 423

App. 30a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 23 of 45 PageID# 424

App. 31a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 24 of 45 PageID# 425

App. 32a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 25 of 45 PageID# 426

App. 33a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 26 of 45 PageID# 427

App. 34a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 27 of 45 PageID# 428

App. 35a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 28 of 45 PageID# 429

App. 36a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 29 of 45 PageID# 430

App. 37a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 30 of 45 PageID# 431

App. 38a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 31 of 45 PageID# 432

App. 39a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 32 of 45 PageID# 433

App. 40a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 33 of 45 PageID# 434

App. 41a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 34 of 45 PageID# 435

App. 42a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 35 of 45 PageID# 436

App. 43a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 36 of 45 PageID# 437

App. 44a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 37 of 45 PageID# 438

App. 45a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 38 of 45 PageID# 439

App. 46a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 39 of 45 PageID# 440

App. 47a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 40 of 45 PageID# 441

App. 48a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 41 of 45 PageID# 442

App. 49a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 42 of 45 PageID# 443

App. 50a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 43 of 45 PageID# 444

App. 51a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 44 of 45 PageID# 445

App. 52a

Case 3:17-cr-00071-MHL Document 34 Filed 02/16/18 Page 45 of 45 PageID# 446

App. 53a

